U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 3, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Foundation for Individual Rights in Education, et al. v. Victim Rights Law
Center, et al., S.Ct. No. 21-84
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 19,
2021, and placed on the docket on July 21, 2021. The government’s response is due on October
1, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0084
FOUNDATION FOR INDIVIDUAL RIGHTS IN
EDUCATION, ET AL.
VICTIM RIGHTS LAW CENTER, ET AL.

CODY BARNETT
ALLIANCE DEFENDING FREEDOM
15100 N. 90TH STREET
SCOTTSDALE, AZ 85260
571-707-4655
CBARNETT@ADFLEGAL.ORG
480-444-0028(Fax)
WILLIAM S. CONSOVOY
CONSOVOY MCCARTHY PLLC
1600 WILSON BLVD.
SUITE 700
ARLINGTON, VA 22209
703-243-9423
WILL@CONSOVOYMCCARTHY.COM
CHARLES JUSTIN COOPER
COOPER & KIRK PLLC
1523 NEW HAMPSHIRE AVENUE, N.W.
WASHINGTON, DC 20036
202-220-9600
CCOOPER@COOPERKIRK.COM
DAVID HODGES
INSTITUTE FOR JUSTICE
901 N. GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
DHODGES@IJ.ORG

MALLORY READER
LIBERTY JUSTICE CENTER
141 W. JACKSON ST.
SUITE 1065
CHICAGO, IL 60604
810-355-8699
MREADER@LIBERTYJUSTICECENTER.ORG
DANIEL R. SUHR
LIBERTY JUSTICE CENTER
141 W. JACKSON BLVD.
SUITE 1065
CHICAGO, IL 60604
312-637-2280
DSUHR@LIBERTYJUSTICECENTER.ORG
WILLIAM E. TRACHMAN
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD, CO 80227
720-640-8713
WTRACHMAN@MSLEGAL.ORG
CRISTEN ALICE WOHLGEMUTH
MOUNTAIN STATES LEGAL FOUNDATION
2596 S. LEWIS WAY
LAKEWOOD , CO 80227
303-292-2021
CRISTEN@MSLEGAL.ORG

